C'OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 19-1009

ALTERA CORPORATION AND SUBSIDIARIES,

Petitioners,
Vv.

COMMISSIONER OF INTERNAL REVENUE,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE CHAMBER

OF COMMERCE OF THE UNITED STATES OF AMERICA AS AMICUS CURIAE IN
SUPPORT OF THE PETITION FOR WRIT OF CERTIORARI in the above entitled case complies

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 4689 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of March, 2020.

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Kente. 0. tooo’ Oudiaw-h, Gh he

GERERAL ROTARY-State of Hebraska
RENEE J. GOSS
A My Comm. Exp. September &, 2023

 

Notary Public 7

Affiant

39549
